U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 12, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Italo Ebcristo Napa Moreira v. United States of America,
S.Ct. No. 20-5087

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 9, 2020,
and placed on the docket on July 16, 2020. The government’s response is due on August 17,
2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 16, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5087
MOREIRA, ITALO EBCRISTO NAPA
USA

MARTIN A. FEIGENBAUM
LAW OFFICES OF MARTIN A. FEIGENBAUM
PO BOX 545960
SURFSIDE, FL 33154
305-323-4595
MIAMIVICELAW@AOL.COM

